Case: 19-2800

Document: 16-1

Page: 1

Date Filed: 04/02/2020

February 27, 2020

ALD-127

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-2800
STEPHEN FREDERICK BAKER, JR., Appellant
VS.
SUPERINTENDENT FAYETTE SCI, ET AL.
(M.D. Pa. Civ. No. 1-16-CV-02478)
Present:

MCKEE, SHWARTZ and PHIPPS, Circuit Judges
Submitted are:
Appellant’s notice of appeal, which may be construed
(1)
as a request for a certificate of appealability under 28 U.S.C. §
2253(c)(1); and
(2)

Appellees’ response

in the above-captioned case.
Respectfully,
Clerk
_______________________________ORDER_______________________________
The foregoing request for a certificate of appealability is denied. The District
Court denied Baker’s petition as untimely. To be entitled to a certificate of appealability,
Baker must show that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and debatable whether the District
Court was correct in its procedural ruling. Slack v. McDaniel. 529 U.S. 473, 484 (2000).
Baker has not shown that jurists of reason would debate that his petition was untimely
and he was not entitled to equitable tolling. See McOuiggin v. Perkins. 569 U.S. 383,
399 (2013); Holland v. Florida. 560 U.S. 631, 649 (2010). Nor has he made a debatable
showing of a valid claim of the denial of a constitutional right with respect to the merits
of his claims. See Strickland v. Washington. 466 U.S. 668, 687-96 (1984).

Case: 19-2800

Document: 16-1

Page: 2

Date Filed: 04/02/2020

By the Court,
s/Pattv Shwartz
Circuit Judge
Dated: April 2, 2020
PDB/cc: Stephen Frederick Baker, Jr.
Christopher J. Schmidt, Esq.

A True Copy: °

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

2

Case: 19-2800

Document: 16-2

Page: 1

Date Filed: 04/02/2020

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT
CLERK

United States Court of Appeals

TELEPHONE

21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

215-597-2995

Website: www.ca3.uscourts.gov
April 2, 2020
Stephen Frederick Baker Jr.
Retreat SCI
660 State Route 11
Hunlock Creek, PA 18621
Ronald Eisenberg
Office of Attorney General of Pennsylvania
1600 Arch Street
Suite 300
Philadelphia, PA 19103
Christopher J. Schmidt
Office of Attorney General of Pennsylvania
Appeals & Legal Services
Strawberry Square
16th Floor
Harrisburg, PA 17120

RE: Stephen Baker, Jr. v. Superintendent Fayette SCI, et al
Case Number: 19-2800
District Court Case Number: l-16-cv-02478
ENTRY OF JUDGMENT
Today, April 02, 2020 the Court issued a case dispositive order in the above-captioned matter
which serves as this Court's judgment. Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.

Case: 19-2800

Document: 16-2

Page: 2

Date Filed: 04/02/2020

Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if the United States is a party.
Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.
Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted without first obtaining leave from the Court.
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en banc are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en banc in the event that the petition seeking only panel
rehearing is denied.
Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.
For the Court,
s/ Patricia S. Dodszuweit.
Clerk
s/ pdb Case Manager
cc:
Mr. Peter J. Welsh

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 1 of 29

UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
Civil No. l:16-CV-2478

STEPHEN BAKER,
Petitioner

(Judge Kane)
v.
(Magistrate Judge Carlson)
JAY LANE, et al.,
Respondents

REPORT AND RECOMMENDATION
I.

Statement of Facts and of The Case
Thirteen years ago, in 2006, Stephen Baker pleaded guilty to two counts of

second-degree murder and one count of possession of firearms by a prohibited
person. Today, thirteen years later, courts are still wrestling with the consequences
of this guilty plea and the timeliness of Baker’s efforts to set aside his murder
convictions.
As we turn to these issues of timeliness, we most assuredly do not write upon
a blank slate in this case. Quite the contrary, over the past thirteen years, this case
has been the subject of fitful litigation by Baker in the Court of Common Pleas,
before Pennsylvania’s Superior Court, in this Court, and in the United States Court
of Appeals for the Third Circuit. The protracted history of Baker’s state postl

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 2 of 29

conviction litigation was aptly summarized by this Court in its initial ruling
addressing the application of the statute of limitations to this case. At that time the
Court explained that:
In the petition Baker alleges that on September 11, 2006, he pled guilty
to two counts of second degree murder and one count of possession of
a firearm by a prohibited person and was sentenced by the Court of
Common Pleas of Huntingdon County, Pennsylvania, to two terms of
life imprisonment to be served concurrently plus a consecutive term of
imprisonment of 5 to 10 years. (Doc. 1, at 1-2.) Baker contends he filed
appeals and post-conviction proceedings in state court but his
allegations regarding the timing of those proceedings are somewhat
vague. (Id. at 3-9.) However a review of the dockets of the Huntingdon
County Court of Common Pleas, the Pennsylvania Superior Court and
the Pennsylvania Supreme Court reveals that on September 20, 2006,
Baker filed in the Court of Common Pleas a post-sentence motion,
Commonwealth of Pennsylvania v. Stephen Frederick Baker, Jr., CP31-CR-0000013-2005, apparently challenging the voluntariness of his
guilty pleas and claiming that his counsel was ineffective. (See Doc. 1,
at 2.) On April 4, 2007, the Court of Common Pleas denied the post­
sentence motion and on April 25, 2007, Baker filed a notice of appeal.
On February 12, 2008, the Superior Court affirmed the decision of the
Court of Common Pleas. Commonwealth of Pennsylvania v. Stephen
Frederick Baker. Jr.. 738 MDA 2007.Baker did not seek review in the
Pennsylvania Supreme Court and, consequently, Baker’s judgment of
conviction and sentence became final on March 13, 2008, 30 days after
the Superior Court issued its decision. After 309 days elapsed with no
proceedings pending in state court, Baker on January 16, 2009, filed in
the Court of Common Pleas of Huntingdon County a petition under
Pennsylvania’s Post Conviction Relief Act, 42 Pa.C.S.A. §§ 9541, et
seq. (“PCRA”). Commonwealth of Pennsylvania v. Stephen Frederick
Baker, Jr.. CP-31-CR-0000013-2005. On November 19, 2009, the
Court of Common Pleas denied the PCRA petition and that decision
became final and the PCRA proceedings terminated on December 21,
2009, when Baker did not file an appeal to the Superior Court. After an
additional 43 days elapsed with no proceedings pending in state court,
2

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 3 of 29

Baker on February 2,2010, filed a second PCRA petition. On February
26, 2015, the Court of Common Pleas granted the second PCRA to the
extent that Baker’s appeal rights were reinstated and Baker filed an
appeal to the Superior Court challenging the denial of his first PCRA
petition. However, on November 30, 2015, the Superior Court affirmed
the decision of the Court of Common Pleas. Commonwealth of
Pennsylvania v. Stephen Frederick Baker. Jr.. 476 MDA 2015.
Subsequently, on April 6, 2016, the Supreme Court of Pennsylvania
denied Baker’s petition for allowance of appeal. Commonwealth of
Pennsylvania. Respondent v. Stephen Frederick Baker. Jr.. Petitioner.
984 MAL 2015. After that denial there were no further proceedings
pending in state court and a period of 253 days elapsed before Baker
filed on December 15, 2016, the present habeas petition in this court.
Baker v. Lane. No. l:16-CV-02478, 2017 WL 386617, at *1 (M.D. Pa. Jan. 27,
2017). Examining this chronology and noting that more than 560 days had elapsed
during these proceedings, which was not apparently tolled under the statute of
limitations for federal habeas corpus petitions filed by state prisoner, 28 U.S.C. §
2244(d), in January of 2017 the district court found that Baker’s petition was timebarred and dismissed this petition. Id.
Baker appealed this decision. (Doc. 10.) On September 29, 2017, the Court of
Appeals remanded this case to the district court for further consideration of whether
Baker was entitled to any form of equitable tolling of the limitations period
prescribed by law, and specifically ordered as follows:
The request for a certificate [of appealability] is granted, the District
Court’s order is summarily vacated, and the matter is remanded for
further proceedings. On remand, the District Court should give Baker
an opportunity to respond to the possible dismissal of his 28 U.S.C. §
3

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 4 of 29

2254 petition as untimely. Day v. McDonough. 547 U.S. 198, 210
(2006) (District Court must provide notice and opportunity to respond
before sua sponte dismissing habeas petition as untimely). It should
also address (1) his arguments for equitable tolling of the statute of
limitations; see Mem. of Law at 7-8 (docket #2); see also id- at 9
(alleging diminished capacity, cognitive impairments, and illiteracy);
Mot. for the App’t of Counsel (same) (docket #3); Appl. for Certificate
of Appealability (same) (docket #10-1); and (2) his arguments for
application of the equitable exception to the statute of limitations set
forth in McOuiggin v. Perkins. 133 S. Ct. 1924, 1935 (2013); see Appl.
for Certificate of Appealability at 9-11.
(Doc. 12.)
Following the issuance of the Court of Appeals’ mandate, this court directed
the parties to thoroughly address any available grounds for equitable tolling of the
statute of limitations in this case. (Docs. 13, 15.) Baker and Respondents have filed
supplemental pleadings addressing these equitable tolling questions. (Docs. 14, 20,
and 22.) In January and March of 2019, this case was referred to the undersigned for
our consideration. Accordingly, this matter is now ripe for resolution.
Upon careful review of the parties’ submissions, and evaluation of all
potential grounds for equitable tolling cited by Baker, for the reasons set forth below
we conclude that the petitioner has not made a sufficient showing to warrant this
extraordinary form of relief. Therefore, we recommend that the petition be
dismissed.

4

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 5 of 29

II.

Discussion
A.

State Prisoner Habeas Relief-The Legal Standard.
(It Substantive Standards

In order to obtain federal habeas corpus relief, a state prisoner seeking to
invoke the power of this Court to issue a writ of habeas corpus must satisfy the
standards prescribed by 28 U.S.C. § 2254, which provides in part as follows:
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district
court shall entertain an application for a writ of habeas corpus in behalf
of a person in custody pursuant to the judgment of a State court only on
the ground that he is in custody in violation of the Constitution or laws
or treaties of the United States.
(b) (1) An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not be granted
unless it appears that—
(A) the applicant has exhausted the remedies available in the courts of
the State;
(2) An application for a writ of habeas corpus may be denied on the
merits, notwithstanding the failure of the applicant to exhaust the
remedies available in the courts of the State.
28 U.S.C. § 2254(a) and (b).
As this statutory text implies, state prisoners must meet exacting substantive
and procedural benchmarks in order to obtain habeas corpus relief. At the outset, a
petition must satisfy exacting substantive standards to warrant relief. Federal courts
may “entertain an application for a writ of habeas corpus on behalf of a person in
5

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 6 of 29

custody pursuant to the judgment of a State court only on the ground that he is in
custody in violation of the Constitution or laws or treaties of the United States.” 28
U.S.C. § 2254(a). By limiting habeas relief to state conduct which violates “the
Constitution or laws or treaties of the United States,” § 2254 places a high threshold
on the courts. Typically, habeas relief will only be granted to state prisoners in those
instances where the conduct of state proceedings led to a “fundamental defect which
inherently results in a complete miscarriage of justice” or was completely
inconsistent with rudimentary demands of fair procedure. See e.g., Reed v. Farley,
512 U.S. 339, 354 (1994). Thus, claimed violations of state law, standing alone, will
not entitle a petitioner to § 2254 relief, absent a showing that those violations are so
great as to be of a constitutional dimension. See Priester v. Vaughan. 382 F.3d 394,
401-02 (3d Cir. 2004).
(2) Deference Owed to State Courts
These same principles which inform the standard of review in habeas petitions
and limit habeas relief to errors of a constitutional dimension also call upon federal
courts to give an appropriate degree of deference to the factual findings and legal
rulings made by the state courts in the course of state criminal proceedings. There
are two critical components to this deference mandated by 28 U.S.C. § 2254.

6

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 7 of 29

First, with respect to legal rulings by state courts, under § 2254(d), habeas
relief is not available to a petitioner for any claim that has been adjudicated on its
merits in the state courts unless it can be shown that the decision was either: (1)
“contrary to” or involved an unreasonable application of clearly established case
law; see 28 U.S.C. § 2254(d)(1); or (2) was “based upon an unreasonable
determination of the facts,” see 28 U.S.C. § 2254(d)(2). Applying this deferential
standard of review, federal courts frequently decline invitations by habeas
petitioners to substitute their legal judgments for the considered views of the state
trial and appellate courts. See Rice v. Collins. 546 U.S. 333, 338-39 (2006); see also
Warren v. Kvler. 422 F.3d 132, 139-40 (3d Cir. 2006); Gattis v. Snvder. 278 F.3d
222, 228 (3d Cir. 2002).
In addition, § 2254(e) provides that the determination of a factual issue by a
state court is presumed to be correct unless the petitioner can show by clear and
convincing evidence that this factual finding was erroneous. See 28 U.S.C. §
2254(e)(1). This presumption in favor of the correctness of state court factual
findings has been extended to a host of factual findings made in the course of
criminal proceedings. See, e.g.. Maggio v. Fulford. 462 U.S. Ill, 117 (1983) (per
curiam); Demosthenes v. Baal. 495 U.S. 731, 734-35 (1990). This principle applies
to state court factual findings made both by the trial court and state appellate courts.
7

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 8 of 29

Rolan v. Vaughn. 445 F.3d 671 (3d Cir.2006). Thus, we may not re-assess credibility
determinations made by the state courts, and we must give equal deference to both
the explicit and implicit factual findings made by the state courts. Weeks v. Snyder.
219 F.3d 245, 258 (3d Cir. 2000). Accordingly, in a case such as this, where a state
court judgment rests upon factual findings, it is well-settled that:
A state court decision based on a factual determination, ..., will not be
overturned on factual grounds unless it was objectively unreasonable in
light of the evidence presented in the state proceeding. Miller-El v.
Cockrell. 537 U.S. 322, 123 S. Ct. 1029, 154 L.Ed.2d 931 (2003). We
must presume that the state court’s determination of factual issues was
correct, and the petitioner bears the burden of rebutting this
presumption by clear and convincing evidence. 28 U.S.C. § 2254(e)(1);
Campbell v. Vaughn. 209 F.3d 280, 285 (3d Cir.2000).
Rico v. Leftridge-Bvrd. 340 F.3d 178, 181 (3d Cir. 2003). Applying this standard of
review, federal courts may only grant habeas relief whenever “[o]ur reading of the
PCRA court records convinces us that the Superior Court made an unreasonable
finding of fact.” Rolan. 445 F.3d at 681.
(3) Procedural Benchmarks - Statute of Limitations
State prisoners seeking relief under section 2254 must also satisfy specific
procedural standards. Principal among these procedural benchmarks is the statute
of limitations which applies to habeas corpus petitions filed by state prisoners. State
prisoners seeking relief under § 2254 must timely file motions seeking habeas corpus
relief. The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), 28
8

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 9 of 29

U.S.C. § 2244, established a one-year statute of limitations on the filing of habeas
petitions by state prisoners. In pertinent part, § 2244(d)(1) provides as follows:
A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a
State court. The limitation period shall run from the latest of(A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an plication created by
State action in violation of the Constitution or laws of the United States
is removed, if the applicant was prevented from filing by such State
action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively applicable to
cases on collateral review; or,
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
See Miller v. New Jersey State Dep’t of Corr.. 145 F.3d 616, 617 (3d Cir. 1998).
The calculation of this limitations period is governed by a series of welldefined rules. At the outset, these rules are prescribed by statute, specifically 28
U.S.C. § 2244(d), prescribes several forms of statutory tolling. First, with respect to
tolling based upon a petitioner’s direct appeal of his conviction, “[t]he limitation
period shall run from the latest of- (A) the date on which the judgment became final
by the conclusion of direct review or the expiration of the time for seeking such

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 10 of 29

review.” § 2244(d)(1)(A). The courts have construed this tolling provision in a
forgiving fashion, and in a manner that enables petitioners to toll their filing
deadlines for the time periods in which they could have sought further direct
appellate review of their cases, even if they did not, in fact, elect to seek such review.
Thus, with respect to direct appeals, the statute of limitations is tolled during the
period in which a petitioner could have sought United States Supreme Court review
through a petition for writ of certiorari, even if no such petition is filed. Jimenez v.
Ouarterman, 555 U.S. 113, 119, 129 S. Ct. 681, 685, 172 L. Ed. 2d 475 (2009).
Section 2244(d)(2), in turn, prescribes a second period of statutory tolling
requirements while state prisoners seek collateral review of these convictions in state
court, and provides that:
The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any period of
limitation under this subsection.
See Swartz v. Meyers. 204 F.3d 417, 419 (3d Cir. 2000).
In assessing § 2244(d)(2)’s tolling provision, for purposes of tolling the
federal habeas statute of limitations, a “properly filed application for State post­
conviction or other collateral review” only includes applications which are filed in a
timely fashion under state law. Therefore, if the petitioner is delinquent in seeking
state collateral review of his conviction, that tardy state pleading will not be
10

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 11 of 29

considered a “properly filed application for State post-conviction or other collateral
review” and will not toll the limitations period. Pace v. DiGuglielmo, 544 U.S. 408,
412-14 (2005); Long v. Wilson. 393 F.3d 390, 394-95 (3d. Cir. 2004). Moreover, in
contrast to the direct appeal tolling provisions, this post-conviction petition tolling
provision does not allow for an additional 90 day period of tolling for the petitioner
who does not seek United States Supreme Court certiorari review of his conviction.
Miller v. Dragovich. 311 F.3d 574, 578 (3d Cir. 2002).
Further, it is important to note that § 2244(d)(2)’s tolling provision only
applies to properly filed applications for state post-conviction or other collateral
review. Therefore, it is well settled that this provision does not allow for tolling of
the statute of limitations while some prior federal post-conviction petition is
pending. As the Supreme Court has explained:
Section 2244(d)(2), . . . , employs the word “State,” but not the word
“Federal,” as a modifier for “review.” It is well settled that “ ‘[wjhere
Congress includes particular language in one section of a statute but
omits it in another section of the same Act, it is generally presumed that
Congress acts intentionally and purposely in the disparate inclusion or
exclusion.’ ” Bates v. United States. 522 U.S. 23,29-30,118 S. Ct. 285,
139 L.Ed.2d 215 (1997) (quoting Russello v. United States. 464 U.S.
16, 23, 104 S. Ct. 296, 78 L.Ed.2d 17 (1983)). We find no likely
explanation for Congress’ omission of the word “Federal” in §
2244(d)(2) other than that Congress did not intend properly filed
applications for federal review to toll the limitation period. It would be
anomalous, to say the least, for Congress to usher in federal review
under the generic rubric of “other collateral review” in a statutory
provision that refers expressly to “State” review, while denominating
li

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 12 of 29

expressly both “State” and “Federal” proceedings in other parts of the
same statute
Duncan v. Walker. 533 U.S. 167, 173, 121 S. Ct. 2120, 2125, 150 L. Ed. 2d 251
(2001).
Beyond this tolling period mandated by statute, it has also been held that
AEDPA’s one-year limitations period is not a jurisdictional bar to the filing of
habeas petitions, Miller, 145 F.3d at 617-18, and, therefore, is subject to equitable
tolling. Id. at 618-19.Yet, while equitable tolling is permitted in state habeas
petitions under AEDPA, it is not favored. As the Court of Appeals has observed:
[EJquitable tolling is proper only when the “principles of equity would
make [the] rigid application [of a limitation period] unfair.” Generally,
this will occur when the petitioner has “in some extraordinary way ...
been prevented from asserting his or her rights.” The petitioner must
show that he or she “exercised reasonable diligence in investigating and
bringing [the] claims.” Mere excusable neglect is not sufficient.
Id. at 618-19 (citations omitted). Indeed, it has been held that only:
[T]hree circumstances permit[] equitable tolling: if
(1) the defendant has actively misled the plaintiff,
(2) if the plaintiff has in some extraordinary way been prevented from
asserting his rights, or
(3) if the plaintiff has timely asserted his rights mistakenly in the wrong
forum.
Jones v. Morton. 195 F.3d 153, 159 (3dCir.l999) (citations omitted).
Fahv v. Horn. 240 F.3d 239, 244 (3d Cir. 2001).

12

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 13 of 29

Applying this exacting standard, courts have held that, “[i]n non-capital cases,
attorney error, miscalculation, inadequate research, or other mistakes have not been
found to rise to the ‘extraordinary’ circumstances required for equitable tolling.” Id.
(citing Freeman v. Page. 208 F.3d 572 (7th Cir. 2000) (finding no basis for equitable
tolling where the statute of limitations was changed to shorten the time for filing a
PCRA only four months prior to the filing of the petition) and Taliani v. Chrans. 189
F.3d 597 (9th Cir. 1999) (finding lawyer’s inadequate research, which led to
miscalculating the deadline, did not warrant equitable tolling)). Courts have also
repeatedly rejected claims by pro se litigants that the burdens of proceeding pro se
should somehow exempt them from strict compliance with the statute of limitations.
See, e.g., Marsh v. Soares, 223 F.3d 1217, 1220 (10th Cir. 2001); United States v.
Cicero. 214 F.3d 199, 203 (D.C. Cir. 2000); Felder v. Johnson. 204 F.3d 168, 171
(5th Cir. 2000). Thus, while tardy habeas petitioners often invite courts to find
extraordinary circumstances warranting equitable tolling, those invitations are rarely
embraced by the courts. See, e.g., Merritt v. Blaine. 326 F.3d 157 (3d.Cir. 2003)
(denying equitable tolling request); Robinson v. Johnson. 313 F.3d 128 (3d. Cir.
2002) (same).
Judged by these guideposts, Baker’s petition is untimely and is barred by the
statute of limitations.
13

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 14 of 29

B.

This Petition is Untimely and Not Subject to Equitable Tolling.

A review of the chronology of this litigation indicates that Baker’s instant
habeas corpus petition is time-barred. As we have noted, § 2244 established a oneyear statute of limitations on the filing of habeas petitions by state prisoners. 28
U.S.C. § 2244(d)(1). While this limitations period is tolled during timely and proper
state post-conviction litigation, there is no form of statutory tolling that would apply
in the instant case to toll time which preceded or followed state post-conviction
litigation.
Applying these statutory tolling principles in the most generous fashion, it
appears that some 309 days elapsed between the time when Baker’s judgment of
conviction and sentence became final on March 13, 2008—30 days after the
Superior Court issued its decision—and January 16, 2009, when Baker filed a
petition under Pennsylvania’s Post Conviction Relief Act (“PCRA”), 42 Pa. Cons.
Stat. §§ 9541 et seq., in the Court of Common Pleas of Huntingdon County. While
that pending state post-conviction litigation tolled the limitations period, even the
most expansive reading of this tolled time period would have drawn to a close on
April 6, 2016, when the Supreme Court of Pennsylvania denied Baker’s petition for
1 We note that some 43 days passed between the resolution of Baker’s first PCRA
petition and the filing of his second petition. Baker has argued that this time should
be tolled, and we are, for purposes of this Report and Recommendation, acceding
to this request.
14

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 15 of 29

allowance of appeal after Baker pursued his appeal of the denial of his second post­
conviction petition. Commonwealth of Pennsylvania. Respondent v. Stephen
Frederick Baker. Jr.. Petitioner. 984 MAL 2015. After that denial, there were no
further proceedings pending in state court, and an additional 253 days elapsed before
Baker filed this federal habeas corpus petition on December 15, 2016. Thus, in the
course of these fitful post-conviction proceedings, at a minimum, 562 days passed
that were not the subject of any form of statutory tolling under § 2244(d).
Accordingly, Baker can only pursue these belated claims if he can
demonstrate an entitlement to some form of equitable tolling. Baker faces an
exacting burden of proof in making any equitable tolling claim. To succeed, Baker
must show that: “the petitioner has 'in some extraordinary way ... been prevented
from asserting his or her rights.’” Miller. 145 F.3d at 618-19 (citations omitted)
(emphasis added).
Here, Baker’s equitable tolling argument fails because we find that Baker has
not satisfied a basic prerequisite for equitable tolling. He has failed to show that he
“exercised reasonable diligence in investigating and bringing [the] claims.” Miller.
145 F.3d at 618-19 (citations and quotations omitted). Instead, the record shows that
Baker pursued post-conviction relief in a fitful fashion, allowing 309 days to elapse
between the culmination of his direct appeals and the commencement of his state
15

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 16 of 29

PCRA litigation. Once that PCRA litigation drew to a close, Baker then permitted
an additional 253 days to pass before coming to federal court seeking habeas corpus
relief. These 562 days of delay are unexplained and unaccounted for by Baker, and
simply do not illustrate the reasonable diligence demanded of inmates seeking this
extraordinary relief. In fact, the delay in pursuing these matters is particularly
inexplicable since the claims Baker indicated that he wished to pursue in this federal
habeas corpus petition, relating to his competence to plead guilty and the
ineffectiveness of his counsel, are all matters that were plainly known to Baker more
than a decade ago when he pursued the first of his halting state post-conviction
filings. Given the fact that Baker has known of these claims for more than a decade,
his unexplained failure to diligently pursue these matters is all the more glaring and
inexcusable.
We have been enjoined on remand to consider whether Baker’s claims of
mental incompetence, abandonment by counsel, or actual innocence provide any
grounds for equitable tolling in this case. (Doc. 12.) While we have carefully
examined these claimed grounds for equitable tolling, weighing Baker’s claims
against the exacting standards prescribed by the law, we find these assertions to be
unavailing and to provide no grounds for tolling the limitations period in this case.

16

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 17 of 29

Turning first to Baker’s assertions that his mental state provided grounds for
equitable tolling of the statute of limitations, in the past petitioners like Baker have
attempted to cite to claims of mental incompetence as grounds for equitable tolling
of this statute of limitations. Yet these claims, while frequently made, have rarely
been embraced by the courts.
To be sure, a finding of incompetence may provide grounds for equitable
tolling of this limitations period, see e.g.. Nara v. Frank. 488 F.3d 187 (3d Cir. 2007);
Holt v. Bowersox. 191 F.3d 970 (8th Cir. 1999), but such claims are subject to
careful scrutiny by the courts. Thus, it is clear that a claim of some mental
impairment, standing alone, will not excuse a procedural default by a federal habeas
petitioner. Quite the contrary:
In the “context of procedural bars arising from failure to pursue state
postconviction remedies, ‘[a] defendant is competent ... if he is not
suffering from a mental disease, disorder, or defect that may
substantially affect his capacity to appreciate his position and make a
rational choice with respect to continuing or abandoning further
litigation.’ “Mental illness and legal incompetence are not identical,
nor are all mentally ill people legally incompetent. ” Id (emphasis
added).
Sims v. Dwver. No. 05-727, 2006 WL 2385262, at *8 (E.D. Mo. Aug. 17, 2006)
(citations omitted). “Likewise, mental disabilities or disorders that do not
substantially affect a petitioner's capacity to appreciate his or her position and make
rational choices with respect to continuing or abandoning further litigation are not
17

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 18 of 29

sufficient ‘cause’ [justifying untimely habeas filings].” Teall v. Vail. No. 09-565,
2010 WL 2079855, *1 (W.D. Wash. May 21, 2010) (citations omitted). Instead:
[I]n order for mental illness to constitute cause and prejudice to excuse
procedural default, there must be a conclusive showing that mental
illness interfered with a petitioner’s ability to appreciate his or her
position and make rational decisions regarding his or her case at the
time during which he or she should have pursued post-conviction relief.
See Garrett v. Groose. 99 F.3d 283, 285 (8th Cir. 1996); Nachtigall v.
Class. 48 F.3d 1076, 1080-81 (8th Cir.1995); Stanley v. Lockhart. 941
F.2d at 708-10.
Holt v. Bowersox 191 F.3d 970, 974 (8th Cir. 1999) (emphasis added).
Furthermore, when considering equitable tolling claims grounded on
assertions of mental incompetence, we must remain mindful of the deference this
Court owes to prior state court findings relating to a petitioner’s competence. Thus,
we are not free to substitute our views for the findings on state judges on issues of
competence to stand trial, Maggio v. Fulford. 462 U.S. Ill, 117, 103 S. Ct. 2261,
76 L.Ed.2d 794 (1983); competence to waive rights, Demosthenes v. Baal. 495 U.S.
731, 734-35, 110 S. Ct. 2223, 109 L.Ed.2d 762 (1990); or whether the defendant’s
mental competence affected his ability to comply with post-conviction petition filing
deadlines. Nara v. Frank. 488 F.3d 187,200,201 (3d Cir. 2007). Rather, these factual
findings are presumed to be correct unless the petitioner can show by clear and
convincing evidence that these factual findings were erroneous. See 28 U.S.C. §
2254(e)(1). Applying these legal benchmarks, federal courts have frequently
18

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 19 of 29

declined invitations to excuse tardy petitions or other procedural defaults by federal
habeas corpus petitioners on the grounds of mental incompetence where the
evidence shows, and state courts have found, that the petitioner has not made a
conclusive showing that mental illness interfered with his ability to appreciate his
position and make rational decisions regarding his case at the time during which he
should have pursued post-conviction relief. See e ,g., Cadmus v. Warden SCI Coal
Twp.. No. 4:08-CV-473, 2010 WL 3081262, at *11-12 (M.D. Pa. June 28, 2010),
report and recommendation adopted. No. 4:08-CV-473, 2010 WL 3081253 (M.D.
Pa. Aug. 5, 2010); Teall v. Vail. No. 09-565, 2010 WL 2079855, *1 (W.D. Wash.
May 21, 2010); Sims v. Dwver. No. 05-727, 2006 WL 2385262, 8 (E.D. Mo.
Aug. 17, 2006); Jasa v. Mathes. No. 03-4095, 2004 WL 2039854 (N.D. Iowa Sept.
13, 2004); Rvan v. Clarke. 281 F.Supp.2d. 1008 (D. Neb. 2003).
In the instant case, the state courts have already thoroughly considered
Baker’s claims that he lacked mental competence, and rejected those claims. As the
Superior Court observed when it affirmed the denial of Baker’s state PCRA petition:
[Baker] argues that he was of “limited mental capacity” and therefore
unable to understand the crimes to which he was pleading guilty.
[Baker] Brief at 14. [Baker] further attributes his alleged inability to
understand the charges against him to trial counsel’s failure to provide
copies of discovery to [Baker] or to discuss discovery with him prior to
his guilty plea. The recordflatly contradicts these claims.

19

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 20 of 29

[Baker] completed a written Guilty Plea Colloquy on September 11,
2006, wherein he affirmed that he understood the factual nature of the
offenses to which he was pleading guilty and that his lawyer had
explained the elements of the criminal offenses to him. See Guilty Plea
Colloquy, 9/11/06 at ^ 14-15. During the oral guilty plea colloquy, the
trial court clearly explained to [Baker] the elements of the crimes of
second degree murder and the firearms offense to which [Baker] was
pleading guilty, and the Commonwealth recited the factual basis for the
plea. See N.T., Plea Hearing and Sentencing, 9/11/06 at 3-9. Thereafter,
[Baker] acknowledged his understanding of the information relayed to
him and indicated his wish to proceed with the guilty plea. See id. at
11. [Baker] further admitted that he was entering his plea voluntarily
and without coercion and that he had all of the information needed in
order to make the decision to enter a guilty plea. See id. at 17-18. Based
upon these statements, the trial court accepted [Baker]’s guilty plea. At
no time - either in the written or oral colloquy - did [Baker] allege that
he was of “limited mental capacity” or that he was without the
necessary information needed to enter a knowing plea. [Baker]
expressly indicated his understanding of the crimes to which he was
pleading guilty and the factual basis for his plea. [Baker] cannot now
baldly recant his representations made under oath to the court.
In light of the comprehensive written and oral plea colloquy, which
[Baker] fully and willingly completed, we find no factual basis to
support [Baker]’s claim that his plea was in any manner unknowingly,
involuntarily, or unintelligently given, or that the ineffective assistance
of trial counsel rendered his plea as such.
Commonwealth v. Baker. 476 MDA 2015, at 5-7 (Pa. Super. Nov. 30, 2015)
(emphasis added) (Doc. 22, Exhibit A). Moreover, these findings by the state courts
were consistent with the determination of Dr. Michelle Arbitell, a licensed clinical
psychologist with 17 years’ experience, who conducted tests and examinations of
Baker and opined at the time of Baker’s state prosecution that, while he had some
20

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 21 of 29

verbal learning disabilities, he was competent to stand trial. (Doc. 22, Exhibit B,
87.)
In the face of this evidence and these state court rulings, Baker confronts two
challenges in sustaining this equitable tolling argument. First, Baker must address
the stubborn fact that the state trial and appellate courts have consistently found that
he has not shown that he was incompetent at the time of this guilty plea. Second,
Baker faces the stark legal reality that we are not free to substitute our views for the
findings of state judges on issues of competence to stand trial, Maggio, 462 U.S. at
117; competence to waive rights, Demosthenes, 495 U.S. at 734-35; or whether the
defendant’s mental competence affected his ability to comply with post-conviction
petition filing deadlines. Nara, 488 F.3d at 200-01. Rather, these factual findings are
presumed to be correct unless the petitioner can show by clear and convincing
evidence that these factual findings were erroneous. See 28 U.S.C. § 2254(e)(1).
Simply put, Baker cannot save this untimely petition by asserting that he is
entitled to equitable tolling of § 2244’s statute of limitations due to his claimed
mental impairments. Indeed, this claim has been rebutted by the Pennsylvania courts,
which have found that Baker has not shown that he was mentally incompetent, a
factual finding which is fully supported by the great weight of the evidence. This
factual finding is presumed to be correct unless the petitioner can show by clear and
21

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 22 of 29

convincing evidence that it was erroneous. See 28 U.S.C. § 2254(e)(1). In this case,
Baker has made no such showing, nor can he. Rather, the evidence shows that Baker
was competent, both at the time of his guilty plea, and in the ensuing months when
he actively litigated pro se claims on his own behalf. Since Baker has not made a
conclusive showing that his mental impairments prevented him from taking
appropriate legal steps to protect his rights, and cannot make such a showing here,
this equitable tolling claim must fail. Cadmus v. Warden SCI Coal Twp.. No. 4:08CV-473, 2010 WL 3081262, at *15 (M.D. Pa. June 28, 2010), report and
recommendation adopted. No. 4:08-CV-473, 2010 WL 3081253 (M.D. Pa. Aug. 5,
2010).
Baker’s claim of entitlement to equitable tolling based upon abandonment by
counsel also warrants only brief consideration. While attorney abandonment may in
extraordinary circumstances constitute grounds for equitable tolling, Ross v.
Varano. 712 F.3d 784 (3d Cir. 2013), in order to justify equitable tolling on these
grounds, the petitioner must show: “extreme neglect, including but not limited to
[counsel’s] refusal to accept [petitioner’s] calls, overall failure to communicate with
[petitioner], inaccurate assurances regarding the status of [petitioner’s] appeal on
those very limited occasions when [counsel] did communicate with [petitioner], and
misstatements of the law.” Ross v. Varano. 712 F.3d 784, 803 (3d Cir. 2013).
22

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 23 of 29

Nothing in Baker’s petition suggests that he has meet this very high threshold for
finding equitable tolling based upon abandonment of counsel. Quite the contrary, it
appears that Baker has received the assistance of counsel at various stages of these
state proceedings. While Baker has been disappointed by the outcome of these
proceedings, that disappointment does not equate with abandonment by counsel.
Therefore, this equitable tolling claim also fails.
Finally, relying upon the Supreme Court’s decision in McOuiggin v. Perkins.
569 U.S. 383 (2013), Baker asserts that he is entitled to equitable tolling of the statute
of limitations because he is actually innocent of the two felony murders to which he
pleaded guilty in 2006. Thus, Baker’s actual innocence equitable tolling claim comes
before us in a novel context, where Baker insists that he is actually innocent of the
crimes that he admitted under oath he committed at the time of his guilty plea.
Baker must meet exacting legal thresholds to sustain this “actual innocence”
claim. As we have noted with respect to this form of equitable tolling:
“Actual innocence, if proved, serves as a gateway through which a
petitioner may pass whether the impediment is a procedural bar ... or
expiration of the statute of limitations.” McOuiggin. 133 S. Ct. at 1928.
However, this exception is also quite narrow. Id. (“We caution,
however, that tenable actual-innocence gateway pleas are rare[.]”). In
McOuiggin the Supreme Court relied on its prior decision in Schlup v.
Delo. 513 U.S. 298 (1995), where the Court held that “a petitioner does
not meet the threshold requirement [of showing actual innocence]
unless he persuades the district court that, in light of the new evidence,
no juror, acting reasonably, would have voted to find him guilty beyond
23

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 24 of 29

a reasonable doubt.” Schlup. 513 U.S. at 329; see also McOuiggin. 133
S. Ct. at 1928; House v. Bell, 547 U.S. 518, 538 (2006) (emphasizing
that the Schlup standard is “demanding” and rarely satisfied). The
timing of the petition is also a relevant factor that bears on the reliability
of the evidence that a petitioner offers to demonstrate actual innocence.
McOuiggin. 133 S. Ct. at 1928.
“To be credible, [an actual innocence] claim requires petitioner to
support his allegations of constitutional error with new reliable
evidence—whether it be exculpatory scientific evidence, trustworthy
eyewitness accounts, or critical physical evidence—that was not
presented at trial.” Schlup. 513 U.S. at 324. Stated somewhat
differently, the petitioner must “present[ ] evidence of innocence so
strong that a court cannot have confidence in the outcome of the trial.”
Id. at 316. But where the new evidence raises “sufficient doubt about
[the petitioner's] guilt to undermine confidence in the result of the trial
without the assurance that trial was untainted by constitutional error,”
then the new evidence meets the “threshold showing of innocence [to]
justify a review of the merits of the constitutional claims.” Id. at 317.
In analyzing a petitioner's actual-innocence claim based on new
evidence, “the habeas court must consider ‘all the evidence,’ old and
new, incriminating and exculpatory, without regard to whether it would
necessarily be admitted under ‘rules of admissibility that would govern
at trial.’ ” House. 547 U.S. at 537-38. Accordingly, “[t]he court's
function is not to make an independent factual determination about
what likely occurred, but rather to assess the likely impact of the
evidence on reasonable jurors.” Id. At the same time, “it bears repeating
that the Schlup standard is demanding and permits review only in the
‘extraordinary’ case.” Id. at 538. A court is not compelled to hold an
evidentiary hearing where, after “assessing] the probative force of the
newly presented evidence in connection with the evidence of guilt
adduced at trial,” the court finds that no reasonable juror would have
acquitted the petitioner in the light of the new evidence presented.
Schlup. 513 U.S. at 331-32; Houck. 625 F.3d at 95.

24

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 25 of 29

Love v. Lamas. No. L13-CV-456, 2016 WL 6694498, at *5 (M.D. Pa. Sept. 20,
2016), report and recommendation adopted No. L13-CV-456, 2016 WL 6582055
(M.D. Pa. Nov. 7, 2016), opinion after grant of reconsideration. No. L13-CV-456,
2017 WL 679828 (M.D. Pa. Feb. 21, 2017), and report and recommendation
adopted. No. L13-CV-456, 2017 WL 679828 (M.D. Pa. Feb. 21, 2017).
In assessing this tardy claim of actual innocence, which Baker advances in
order to support some form of equitable tolling, we are constrained to observe that
at the time of his 2006 guilty plea, Baker acknowledged orally and in writing under
oath that he had, in fact, committed this double homicide. (Dc. 22, Exhibit A, at 57, Doc. 22, Exhibit E.) Moreover, Baker entered these guilty pleas after earlier
confessing to police that he had shot and killed his victims. In the face of these
repeated admissions, Baker’s current claim of actual innocence rests upon a single,
thin reed. According to Baker, he cannot be guilty of second-degree murder because
“[njothing was taken, so the Commonwealth was not in a position to demonstrate
that there exists a robbery in this case.” (Doc. 10-1, at 11.) Thus, Baker now seeks
the benefit of equitable tolling and urges us to allow him to belatedly challenge this
conviction based upon a claim that, while he may be guilty of two killings, he was
actually innocent of a murder during a robbery because nothing was taken after he
killed his victims.
25

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 26 of 29

Beyond the risible notion that someone can be actually innocent of killings
they admit to having committed, this “actual innocence” claim fails because it rests
upon a basic misunderstanding regarding what constitutes a second-degree murder
in Pennsylvania. Pennsylvania law provides that: “A criminal homicide constitutes
murder of the second degree when it is committed while defendant was engaged as
a principal or an accomplice in the perpetration of a felony.” 18 Pa. Cons. Stat. §
2502(b). Robbery is a felony under Pennsylvania law, 18 Pa. Cons. Stat. § 3701, but
what Baker fails to consider is that Pennsylvania law also recognizes the crime of
attempted robbery. See 18 Pa. Cons. Stat. §§ 906, 3701. Like robbery, attempted
robbery is a felony. Id. Moreover, the robbery statute defines the offense of robbery
in terms that include an attempt to take money from another. As the Pennsylvania
Superior Court has observed: “A conviction for robbery does not require proof of a
completed theft, it requires only that the requisite force was used ‘in the course of
committing a theft,’ which is statutorily defined as ‘an attempt to commit theft or in
flight after the attempt or commission.’” Commonwealth v. Robinson. 936 A.2d 107,
110 (2007) (quoting § 3701(a)(2)). Accordingly, it has been held that:
A criminal homicide constitutes murder of the second degree when it is
committed while defendant was engaged as a principal or an
accomplice in the perpetration of a felony.” 18 Pa. C.S.A. § 2502(b).
“Perpetration of a felony” is defined as: “The act of the defendant in
engaging in or being an accomplice in the commission of, or an attempt
26

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 27 of 29

to commit, or flight after committing, or attempting to commit robbery,
Commonwealth

v. Knox. 2012 PA Super 148, 50 A.3d 749, 754-55 (2012)

(emphasis added).
Simply put, under Pennsylvania law, Baker did not actually have to take
property from his victims after he shot them to death to be guilty of second-degree
murder. It was sufficient under Pennsylvania law that his victims died in the course
of an attempted robbery. Nothing more was required to establish his guilt, and
Baker’s claim of actual innocence based upon the alleged failure to prove that he
committed thefts after he engaged in this double homicide fails as a matter of law.
In sum, given this inaction by the petitioner, no form of equitable tolling
analysis can save this petition from the fate which AEDPA’s one-year statute of
limitations dictates in this case. Thus, on its face, this petition is untimely and falls
outside § 2244(d)’s one-year limitation period, and we cannot find any extraordinary
circumstances of the type that would justify equitable tolling of this limitations
period.
Furthermore, while Baker has not made a showing of extraordinary
circumstances on his part that would justify tolling this limitations period, there are
substantial interests that weigh in favor of holding the petitioner strictly to the
limitations period prescribed by law. These countervailing interests include the
27

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 28 of 29

strong societal interests favoring finality in litigation, as well as the institutional
interests of the criminal justice system, which favor prompt presentation and
resolution of disputes. However, when considering a statute of limitations question
which arises in the context of a belated collateral attack upon criminal convictions
involving a double homicide, there is also an important human dimension to the
statute of limitations. To ignore the limitations period prescribed by law, and permit
Baker to belatedly re-open this case, would compel his victims to, once again,
experience the trauma of these events.
Since Baker has not fulfilled his responsibility to bring this petition in a timely
manner and has not carried his burden of showing extraordinary circumstances
justifying a tolling of the statute of limitations, he should not be entitled to compel
the government to require the families of his victims to revisit these events. Thus,
this petition should be dismissed as time-barred.
III.

Recommendation
Accordingly, for the foregoing reasons, IT IS RECOMMENDED that the

petition for a writ of habeas corpus in this case be DISMISSED as time-barred, and
that a certificate of appealability should not issue.
The petitioner is further placed on notice that pursuant to Local Rule 72.3:
Any party may object to a magistrate judge's proposed findings,
recommendations or report addressing a motion or matter described in
28

Case l:16-cv-02478-YK-EB Document 25 Filed 05/22/19 Page 29 of 29

28 U.S.C. § 636 (b)(1)(B) or making a recommendation for the
disposition of a prisoner case or a habeas corpus petition within
fourteen (14) days after being served with a copy thereof. Such party
shall file with the clerk of court, and serve on the magistrate judge and
all parties, written objections which shall specifically identify the
portions of the proposed findings, recommendations or report to which
objection is made and the basis for such objections. The briefing
requirements set forth in Local Rule 72.2 shall apply. A judge shall
make a de novo determination of those portions of the report or
specified proposed findings or recommendations to which objection is
made and may accept, reject, or modify, in whole or in part, the findings
or recommendations made by the magistrate judge. The judge,
however, need conduct a new hearing only in his or her discretion or
where required by law, and may consider the record developed before
the magistrate judge, making his or her own determination on the basis
of that record. The judge may also receive further evidence, recall
witnesses or recommit the matter to the magistrate judge with
instructions.
Submitted this 22d day of May 2019.
S/Martin C. Carlson
Martin C. Carlson
United States Magistrate Judge

29

Case l:16-cv-02478-YK-EB Document 28 Filed 07/17/19 Page lot 3

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
STEPHEN FREDERICK BAKER, JR.,
Petitioner

No. l:16-cv-2478
(Judge Kane)
(Magistrate Judge Carlson)

v.
JAY LANE, et ah,
Respondents
ORDER

THE BACKGROUND OF THIS ORDER IS AS FOLLOWS:
Before the Court is the May 22, 2019 Report and Recommendation of Magistrate Judge
Carlson (Doc. No. 25), recommending that the Court dismiss the petition for a writ of habeas
corpus pursuant to 28 U.S.C. § 2254 filed by pro se Petitioner Stephen Frederick Baker, Jr.
(“Petitioner”) as untimely. (Doc. No. 1.) Petitioner has filed a motion for an extension of time
to file objections (Doc. No. 26), and subsequently filed his objections on June 19, 2019 (Doc.
No. 27). The Court will grant his motion for an extension of time (Doc. No. 26) and deem his
objections timely.
In 2006, Petitioner pled guilty to two (2) counts of second-degree murder and one (1)
count of possession of a firearm by a prohibited person and was sentenced by the Court of
Common Pleas for Huntingdon County to serve life in prison. See Commonwealth v. Baker.
Docket No. CP-3 l-CR-0000013-2005 (C.C.P. Huntingdon Cty.).1 After pursuing an
unsuccessful post-trial motion, see id, Petitioner appealed, and on February 12, 2008, the
Superior Court of Pennsylvania affirmed his judgment of conviction. See Commonwealth v.
Baker. 738 MDA 2007 (Pa. Super. Ct.).

l

The Court may take judicial notice of state and federal court records. See Montanez v. Walsh.
Civ. A. No. 3:CV-13-2687, 2014 WL 47729, at *4 n.l (M.D. Pa. Jan. 7, 2014).

Case l:16-cv-02478-YK-EB Document 28 Filed 07/17/19 Page 2 of 3

On January 16, 2009, Petitioner filed a Post-Conviction Relief Act (“PCRA”) petition.
See Baker. Docket No. CP-31-CR-0000013-2005. On November 19, 2009, the PCRA court
denied his petition. See id. On February 2, 2010, Petitioner filed a second PCRA petition. See
id. On February 26, 2015, the PCRA court granted the second PCRA petition to the extent that
Petitioner’s appellate rights were reinstated, and Petitioner appealed the denial of his first PCRA
petition to the Superior Court. See id. On November 30, 2015, the Superior Court affirmed the
denial of Petitioner’s first PCRA petition. See Commonwealth v. Baker. 476 MDA 2015 (Pa.
Super. Ct.). On April 6, 2016, the Supreme Court of Pennsylvania denied Petitioner’s petition
for allowance of appeal. See Baker v. Commonwealth. 984 MAL 2015 (Pa.).
Petitioner filed his § 2254 petition on December 15, 2016. (Doc. No. 1.) In a
Memorandum and Order dated January 27, 2017, the Court dismissed the petition as time-barred.
(Doc. Nos. 7, 8.) Petitioner filed a timely notice of appeal. (Doc. No. 10.) On September 8,
2017, the United States Court of Appeals for the Third Circuit remanded the matter to this Court
with directions that the Court consider whether Petitioner was entitled to any form of equitable
tolling given his allegations of mental incapacity, abandonment of counsel, and actual innocence.
(Doc. No. 12.) In his Report and Recommendation, Magistrate Judge Carlson concludes that
Petitioner is not entitled to equitable tolling of the statute of limitations. (Doc. No. 25 at 14-28.)
Specifically, Magistrate Judge Carlson rejected Petitioner’s arguments that he was entitled to
equitable tolling based upon mental incapacity, abandonment by counsel during PCRA
proceedings, and allegations of actual innocence. (Id.)
Petitioner now objects to Magistrate Judge Carlson’s Report and Recommendation, again
asserting that he is entitled to equitable tolling of the statute of limitations because he was
abandoned by counsel during PCRA proceedings, suffers from mental incompetency, and is

2

Case l:16-cv-02478-YK-EB Document 28 Filed 07/17/19 Page 3 of 3

actually innocent of the crimes to which he pled guilty. (Doc. No. 27.) Having considered
Petitioner’s challenges, the Court concludes that Magistrate Judge Carlson correctly and
comprehensively addressed them in his Report and Recommendations. Accordingly, Petitioner’s
objections will be overruled.
AND SO, on this 17th day of July 2019, upon independent review of the record and
applicable law, IT IS ORDERED THAT:
1.

Petitioner’s motion for an extension of time (Doc. No. 26) is GRANTED, and his
objections (Doc. No. 27) are deemed timely filed;

2.

The May 22, 2019 Report and Recommendation (Doc. No. 25) of Magistrate
Judge Carlson is ADOPTED;

3.

Petitioner’s objections to the Report and Recommendation (Doc. No. 27) are
OVERRULED;

4.

The petition for a writ of habeas corpus (Doc. No. 1) is DENIED;

5.

A certificate of appealability SHALL NOT ISSUE; and

6.

The Clerk of Court is directed to CLOSE this case.
s/ Yvette Kane
Yvette Kane, District Judge
United States District Court
Middle District of Pennsylvania

3

Case: 19-2800

Document: 23

Page: 1

Date Filed: 07/23/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2800
STEPHEN FREDERICK BAKER, JR.,
Appellant
v.
SUPERINTENDENT FAYETTE SCI;
ATTORNEY GENERAL PENNSYLVANIA;
DISTRICT ATTORNEY HUNTINGDON COUNTY
(M.D. Pa. No. l-16-cv-02478)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/Patty Shwartz
Circuit Judge
Date: July 23, 2020
Lmr/cc: Stephen Frederick Baker, Jr.
Christopher J. Schmidt
Ronald Eisenberg

/O

tLs-rJ.'k-

<Z

actually innocent of the crimes to which he pled guilty. (Doc. No. 27.) Having considered
Petitioner’s challenges, the Court concludes that Magistrate Judge Carlson correctly and
comprehensively addressed them in his Report and Recommendations. Accordingly, Petitioner’s
objections will be overruled.
AND SO, on this 17th day of July 2019, upon independent review of the record and
applicable law, IT IS ORDERED THAT:
1.

Petitioner’s motion for an extension .of time (Doc. No. 26) is GRANTED, and his
objections (Doc. No. 27) are deemed timely filed;

2.

The May 22, 2019 Report and Recommendation (Doc. No. 25) of Magistrate
Judge Carlson is ADOPTED;

3.

Petitioner’s objections to the Report and Recommendation (Doc. No. 27) are
OVERRULED;

4.

The petition for a writ of habeas corpus (Doc. No. 1) is DENIED;

5.

A certificate of appealability SHALL NOT ISSUE; and

6.

The Clerk of Court is directed to CLOSE this case.
s/ Yvette Kane
Yvette Kane, District Judge
United States District Court
Middle District of Pennsylvania

3

£-WV X A

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA
Respondent

No. 984 MAL 2015
Petition for Allowance of Appeal from
the Order of the Superior Court

v.
STEPHEN FREDERICK BAKER, JR.
Petitioner

ORDER

PER CURIAM
AND NOW, this 6th day of April, 2016, the Petition for Allowance of Appeal is
DENIED.
Justice Wecht did not participate in the consideration or decision of this matter.

A True Copy Amy Dreibelbis, Esquire
As Of 4/6/2016
Attest:
Deputy!
■ Supreme Court of Pennsylvania

/£JP/PeZSIeJ!X S jpSnzf.lL-

J-S61013-15

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

Appellee
v.
STEPHEN FREDERICK BAKER, JR.
Appellant

No. 476 MDA 2015

Appeal from the PCRA Order November 19, 2009
In the Court of Common Pleas of Huntingdon County
Criminal Division at No(s): CP-31-CR-0000013-2005
BEFORE: PANELLA, J., WECHT, J., and STRASSBURGER, J.*
MEMORANDUM BY PANELLA, J.

FILED NOVEMBER 30, 2015

Appellant, Stephen Frederick Baker, Jr., appeals from the PCRA1 order
entered on November 19, 2009, in the Court of Common

Pleas of

Huntingdon County. We affirm.
On September 11, 2006, Appellant entered a guilty plea to two counts
of murder of the second degree and one count of persons not to possess
firearms2 and was sentenced to life imprisonment. On September 20, 2006,
Appellant filed a post-sentence motion to withdraw his guilty plea, which the
trial court denied.

On appeal, this Court affirmed Appellant's judgment of

sentence, and ordered that Appellant's remaining claims of ineffective

* Retired Senior Judge assigned to the Superior Court.
1 Post Conviction Relief Act, 42 Pa.C.S. §§ 9541-9546.
2 18 Pa.C.S.A. §§ 2502(b) and 6105(a)(1), respectively.

y 2) pst azfr£t,

J-S61013-15

guilty plea by simply retracting or contradicting his statements made during
the colloquy. See Pollard, supra.
In light of the comprehensive written and oral plea colloquy, which
Appellant fully and willingly completed, we find no factual basis to support
Appellant's claim that his plea was in any manner unknowingly, involuntarily,
or unintelligently given, or that the ineffective assistance of trial counsel
rendered his plea as such.

Accordingly, we affirm the order of the PCRA

court.
Order affirmed.
Judgment Entered.

Joseph D. Seletyn, Es^C
Prothonotary

Date: 11/30/2015

- 7 -

jFf

'h'/H

//

strong societal interests favoring finality in litigation, as well as the institutional
i

inteiests of the criminal justice system, which favor prompt presentation and
resolution of disputes. However, when considering a statute of limitations question
which aiises in the context of a belated collateral attack upon criminal convictions
involving a double homicide, there is also an important human dimension to the
statute of limitations. To ignore the limitations period prescribed by law, and permit
Baker to belatedly re-open this case, would compel his victims to, once again,
V,

experience the trauma of these events.
Since Baker has not fulfilled his responsibi lity to bring this petition in a timely
manner and has not carried his burden of showing extraordinary circumstances
justifying a tolling of the statute of limitations, he should not be entitled to compel
the government to require the families of his victims to revisit these events. Thus,
this petition should be dismissed as time-barred.
III.

Recommendation
Accordingly, for the foregoing reasons, IT IS RECOMMENDED that the

petition for a writ of habeas corpus in this case be DISMISSED as time-barred, and
that a certificate of appealability should not issue.
The petitioner is further placed on notice that pursuant to Local Rule 72.3:
Any party may object to a magistrate judge's' proposed findings,
recommendations or report addressing a motion or matter described in
28

<-

Case l:16-cv-02478-YK-RM Document 22-3 Filed 11/01/18 Page 5 of 84
t

s'

THE court:

i
2
3
4
:
5
6
7

;V

i

Post-Conviction petition.

I assume I'm going to hear i

Mr. Kling, from Mr. Baker, is that correct?
MR. KLING: Yes, Your Honor. I believe we were
going to start with Attorney Hooper first.
THE COURT: All right, Mr. Hooper.
MR. KLING: And Attorney lackson's —

8

THOMAS K. HOOPER WAS CALLED AND SWORN.

9

MR. :KLING::

10

i]4ke :to:mak£-

pend: the; PCRA to add

12

etotrgeimvelPii^W&

15
10
17

20

MR. Vling:

23
24

25

:

-E

:•
i

5

was-committed by the Defendant. And actually my
understanding of the case law is that has to be tried

19

22

.

t'

rv"

21

!i

that charge is to be severed or motion to sever is to be
.made, otherwise it's, per se, ineffectiveness due to the
requirement that the commonwealth must prove that a felony

separately.
THE COURT:

18

I

r

li

14

i

judgeT-Tn^

Just recently/Te_arn#: that #

13

-

All right, we're here on the Baker

!
i
Ii

■

And so you're asking to do what?
To amend to include an allegation

that counsel was ineffective for failing to sever the
charge' of felon not to possess a firearm
the court:

I

in light of the facts in.the plea,

Vi

what's the relevance?
MR. KLING:

It —

1
Ref -. 231618 pg 64 of 101 for STEPHEN BAKER JR
■!'

'S

Case l:16-cv-02478-YK-RM Document 22-3 Filed 11/01/18 Page 6 of 84

4

THE
MR.
THE
MR.

COURT: He didn't plead to that, right?
KLING: Yes, he did, Your Honor.
COURT: He did?
JACKSON: Yeah

5

THE

court:

i
2
3

6
7
8

?" 9.
10
ll
12
!>■ 13
14

fc,
15
M
16 '
17'

r5-

i-: is
19
20 .

21
22
23

V, 24
r

25

' !
!
l ■

You're saying it has to be severed

for purposes of trial. He had no trial.
MR. KLING: That's correct, Your Honor, but
THE COURT: All right. Well, you put it on the
record.

1

.!

That's fine.
MR. KLING: It would be ineffective because the

s
!
i

1

!
!

'-I
motion was never filed.
THE COURT: We never got to the point to give
Mr . Hooper to make such a motion because we didn't go to
trial but, all right, Mr. Hooper, recognizing your

i'­

professional obligations, I am not going to direct you to
answer the questions of counsel.
. mr. hooper: Thank you, Your Honor
THOMAS K. HOOPER WAS CALLED AND SWORN.
DIRECT EXAMINATION
BY MR. JACKSON!
Good afternoon, Mr. Hooper.
Q.

A.
Q.
address?
A.

Good afternoon.
Would you give just for the record your name and
Thomas Hooper, 1316 Third Avenue, Duncansville,

2
, Ref: 231618 pg 65 of 101 for STEPHEN BAKER JR

•:
' i.
:
I
!.

Case l:16-cv-02478-YK-RM Document 22-3 Filed 11/01/18 Page 30 of 84

i

•/V

i

A.

Yes,

2

Q.

Her purpose was to do what?

? 3

A.

We had retained her for the purpose of

conducting testimony providing expert opinion on — to his

4

intellectual functioning, specifically to his reading and
writing.

7

perhaps we squeezed it into two —we had Stephen

9

l
11
12 .

U

r is

■

17
18

add.

20

; 2i
22
23

i?4:
25

i
-s

i
!'
;

far below the level he would have had to read at to
sufficiently understand the Miranda warnings as written in
the standard psp Miranda warning waiver form.
in your experience is it typical for the defense
Q.
to supply an expert for suppression?
I have in the past with equal success I might
A.

f 19
v

;
i

amount of psychological testing, some personality testing,
and then offered opinions that he was reading at a level

10 .

o14

\

transported down to Dr. Arbitell's office in State
college, she conducted IQ testing. I believe a limited

8.

w

I believe that on three separate occasions —

6

in this case you petitioned the Court and had
appointed two private investigators, is that correct?
one firm but two investigators worked on it,
A.

!
■

(

Q.

yes.
Q.

You also successfully petitioned for a

mitigation expert?
7T>

A.

Yes.

r
26
;Ref: 231618 pg 89 of.101 .for STEPHEN BAKER JR •

!

•I

i

Case l:16-cv-02478-YK-RM Document 22-3 Filed 11/01/18 Page 32 of 84
Cykjix.f'*£ ^

_

c

;
•)
i
I

!

2
3
4
S
6
7
8
9
V.< -

10
i
11
12
13
14
is
16
17
f L8
19
20
22
13
24
>5

the pretrial suppression phase, I did not want the
Commonwealth to have access to all the additional opinions
that we would ultimately have an expert render in the
penalty phase. And by rule they're not entitled to that
until there is a first degree finding. So the methodology
was to have two separate experts so we could keep some of
that out of the hands of the commonwealth.

i

!

■■

i

And Dr. Tabikman would have offered expert
opinions as to, you know, what we had talked about was and
what's really tragic about it was Stephen had a really,
really horrible fall several years prior to his arrest on
these charges. He had fallen off a roof and suffered just
debilitating injuries from it. These injuries not only
potentially could impact him cognitively but also, were
debilitating physically, led to drug addiction, so that
we thought that the combination of that, the family
history, the lack of schooling, dysfunctional
relationships, not only family but extra, all of it would
serve well in offering mitigation.
Q.
And you had someone hired to flesh all of that
out, is that correct?
A.
We had all the materials we needed to present
that, yes.
Q.
Now, I'm going to direct your attention i
believe it was Defendant's Exhibit 2. Do you still have

28
Ref: 231618 pg 91 of 101 for STEPHEN BAKER JR

!
i ■

!
I:
f
!
!

■i

.

Case l:16-cv-02478-YK-RM Doeumem22-3 Filed 11/01/18 Page 3 of 84

TNDEX TO WITNESSES

i '
• 1

FOR THE

commonwealth:

Thomas K. Hooper

DIRECT CROSS
2

24

REDIRECT
39

RECROSS

i

;

r

K.

FOR THE DEFENDANT:
Stephen F. Baker, or.

DIRECT CROSS
63
44

REDIRECT RECROSS
77

■

. \
f

;
->

?

i

;
!
:

i
I;!:
J

-I'

■

■V

I
!
Ref: 231618 pg 62 of 101 for STEPHEN BAKER .JR

ii'

Case l:16-cv-02478-YK-RM Document 22-3 Filed 11/01/18 Page 34 of 84

i

A.

Yes.

2

Q.

The day of the —

3

A.

i should say this was sent to me — Stephen and

4
5
6
7
8
9
10
!i

13
14

she's going to get in trouble again.

12
jT

ah

isn't it correct in-here he refers to Crystal as

15

Q-

16

a murderer?

17

A.

•1Y

18
19

i:

Q.
Isn't it fair also to deduce from that that may
have been a way of him suggesting to you, hey, here's one
of the defenses we discussed?
A.
Like I said, I know what it was. He was
providing me evidence she had gotten in trouble again
which, like I said, was no surprise. Leave Crystal out,

11
v,'

I discussed this. This was sent to me to aid in any
efforts we would need to impeach crystal Frederick which
wasn't the greatest challenge in the world, she reeks of
impeachment.

20
21
22
23
24
25

As a murderer, yes.

Q.
And that was a strategy that he had discussed
with you which was how do we deflect this murder onto
Crystal and not me?
A.

Yes.
The day of the guilty plea, September 11th of
Q
•'
...i
2006, that was the date that had been scheduled for jury
trial, correct?
A.
To commence jury selection, yes.

‘

' :K;J
I

-f

30
Ref: 231618 pg 93 of 101 for STEPHEN BAKER JR'

't (•£
preliminary hearing transcript page 3). The preliminary hearing was held on January 7, 2005
before District Judge Colyer. After testimony, all of the charges were bound to Court with the
exception of two counts of robbery, District Judge Colyer finding that the Commonwealth failed
\NVb
<V

to prove a Prima Facie case thereon. Thereafter the appellant was served notice of the
Commonwealths’intention to seek the death penalty.
Thereafter an omnibus pre-trial motion was filed seeking inter alia, the suppression of the
appellants’ confession, and the suppression of the statement of the eye witness, one Ciystal
Frederick. The basis of the suppression of Baker’s statement was the level of his cognitive
function. A hearing was held where Dr. Michelle Arbitell, a Clinical Psychologist was qualified
as an expert in the field of forensic Neuropsychology, (transcript dated February 21, 2006 of pre­
trial hearing page 3). Dr Arbitell testified that she performed a clinical interview of Mr. Baker,
and performed the following tests: Wechsler Adult Intelligence Scale Third Revision; Wechsler
Memory Scale Third Revision; Wide Range Achievement Test, reading, spelling, and arithmetic
Subtests, the blue version; Assessment of Understanding and Appreciation of the Miranda
Rights; MacArthur competency Assessment Tool for Criminal Adjudication; and the Flesch Test
of Readability (transcript Page 6-8).
As a result of her testing Dr. Arbitell diagnosed the Appellant as suffering from a Verbal
Learning Disability (transcript page 12). She found Mr. Baker to have a full scale range of
intelligence of 87, meaning low average; a Verbal IQ of 78, meaning borderline mentally
retarded; and a Performance IQ of 99. (transcript pages 9-12).
The trial Judge dismissed the pre-trial motions and the case was set for trial. Jury
selection was scheduled to begin on Monday, September 11, 2006. At that time, the defendant
indicated that his Trial Counsel, Thomas K. Hooper and Penalty Phase counsel, David G. Smith,
told him they did not wish to try this case and began discussing a plea with the appellant.
Appellant believes and therefore avers that he was coerced, pressured and forced to enter the
subject plea. The appellant believes and therefore avers that he is suffering prejudice that rises to
the level of manifest injustice, because he was denied his day in court before a jury of his peers.
The appellant asserts that his counsel failed to provide him with copies of the discovery that they
had received in his case. He avers that counsel failed to review discovery with him and explain
the significance of the evidence to his case. He avers that counsel was ineffective in presenting
3

&

Case l:16-cv-02478-YK-RM Document 22-3 Filed 11/01/18 Page 69 of 84

i

you clear on this?"

2

that says?

Yeah.
And and it's your testimony today that, I guess,
Q.
your responses there were not truthful?
A.
I told you I didn't understand none of that
process.
Did you indicate to the court at that point that
Q.
you didn't understand?
A.
I was told to just go through it.
Q. So, in other words, when you responded that you
understood, then you were not telling the truth?
A.
I was just going along with what Tom Hooper told
told me to do.
Either you understood or you didn't understand
. Q.
and it's.your testimony today you didn't understand?
A.
I didn't understand what was going on.
Did you ever tell the Court that you felt you
Q.
were being forced or coerced by your attorneys into
pleading guilty?

4
5
6
7
8
9
10
11
12

13
14
15
16
17
18
19
20
21

23
24
25

Is that what

A.

3

22

And you responded yes.

'

A.

That's in my PCRA.

Q

Did you ever tell the court at the time of the

guilty plea?
A. No.
Q*

in fact, the Judge asked you on numerous

65
Ref: 231619 pg 28 of 89 for STEPHEN BAKER JR

I
f
l
f
i .
t

f

]•
2

Case l:16-cv-02478-YK-RM Document 22-3 Filed 11/01/18 Page 70 of 84
''-p

i

occasions if you were forced or threatened to plead guilty

2
3

and you responded that you were not, is that correct?
if i would have said I was, then 1 would have
A.

4

had to go to trial with those two lawyers and I didn't

5

want them lawyers.
Q.
Let me direct your attention to page No.. 17
beginning with line No. 6. The Court asks you "You're
entering this plea voluntarily?" You respond yes.
Question by the Court: "Has anyone forced you to enter
this plea?" Response by you no. Question by the court:
"Have any threats been made against you?" Response, no.
Question: "Have you had sufficient time to talk with

6
7
8
9
10
11
12
13
14
15
16

Mr. Hooper and Mr. Smith?" Your response, yes.
At that point in time when the Court asked you
repeatedly if you jadbeen forced or any threats had been
made and you responded there had not, is that correct?

17

A.

Yes.

18

Q.

And you're testifying differently now?

19

A.

I told you i didn't understand none of that

20
21
22

guilty plea colloquy.
q.

do

you understand what the Court meant when he

asked you if you were being forced to plead guilty?

23

A.

24

And you responded no?
Q.
A. v If I would have said I was, I would have had to

25

Yeah.

66
Ref: 231619 pg 29 of 89 for STEPHEN BAKER JR

S
t

i
.(

I

!
i

lZ<rh 'b • sh"U

demonstration that the plea was a voluntary and intelligent action entered with full
awareness of its ramifications.*566 Commonwealth v. Iseley, 419 Pa.Super. 364, 377,
615 A.2d 408, 415 (1992) (citing Commonwealth v. Ingram, 455 Pa. 198, 200, 316 A.2d
77, 78 (1974)). While the Rule 319 checklist is a necessary part of the determination of
the validity of a guilty plea, a full analysis must be based on the totality of the
circumstances surrounding the plea. Commonwealth v. Iseley, supra 419 Pa.Super. at
377, 615 A.2d-at 415 (citing Commonwealth v. Owens, 321 Pa.Super. 122, 131, 467
A.2d 1159, 1163 (1983)). Commonwealth v. Flood. 426 Pa.Super. 555, 567, 627 A.2d
1193, 1199(1993)
Petitioner believes that his plea was involuntary, unintelligent and unknowing based upon
the totality of the circumstances surrounding this case. Trial Counsel filed pre-trial suppression
motions and expert testimony regarding the petitioners’ clear and obvious learning disabilities,
including but not limited to his inability to read, comprehend and process information. These
impairments stem from numerous sources including drug use The Court in Commonwealth v.
Flanagan, 578 Pa. 587, 854 A.2d 489 (2004) has said:
This Court has maintained that the entry of a plea that is unknowing, in the sense that the
defendant lacks a basic understanding of the legal principles giving rise to the criminal
responsibility that he is accepting, is a manifest injustice and grounds for post-conviction
relief. See, e g., Commonwealth v. Gunter, 565 Pa. 79, 84, 771 A.2d 767, 771 (2001)
(plurality, but with all Justices agreeing that a manifest injustice is established in
circumstances in which a plea is unknowing).™12 The standard for post-sentence
withdrawal of guilty pleas dovetails with the arguable merit/prejudice requirements for
relief based on a claim of ineffective assistance of plea counsel, see generally
Commonwealth v. Kimball, 555 Pa. 299, 312, 724 A.2d 326, 333 (1999), under which the
defendant must show that counsel's deficient stewardship resulted in a manifest injustice,
for example, by facilitating entry of an unknowing, involuntary, or unintelligent plea.
See, e.g., Allen, 557 Pa. at 144, 732 A.2d at 587 (“ Allegations of ineffectiveness in
connection with the entry of a guilty plea wil l serve as a basis for relief only if the
ineffectiveness caused appellant to enter an involuntary Or unknowing plea.” );
Commonwealth v. Frometa, 520 Pa. 552, 555, 555 A.2d 92, 93 (1989); see also
Commonwealth v. Flood, 426 Pa.Super. 555, 567, 627 A.2d 1193, 1199 (1993).
In as much as the Court has recognized that Counsel ’ s stewardship of a case can be
implicated as resulting in an unknowing, involuntary, or unintelligent plea, it is clear that in the
case at bar, there is sufficient evidence to substantiate your petitioners claim of ineffective
assistance of counsel, where as in the case at bar counsel did not provide your petitioner with
copies of discovery with sufficient time to allow your petitioner to review same and digest its
meaning. Additionally, given the claimants learning disabilities, counsel failed to adequately
review and explain the import of the materials obtained in discovery and the impact of the
8

IN THE COURT OF COMMON PLEAS OF HUNTINGDON COUNTY, PENNSYLVANIA
CRIMINAL DIVISION
COMMONWEALTH OF
PENNSYLVANIA
Vs.

CR-13-2005.

STEPHEN BAKER JR.
Defendant

STATEMENT OF THE CASE
On December 29, 2004, the bodies of Jessica Wills and Tyrell Dixon were found in
Shirleysburg, Huntingdon County Pennsylvania. An investigation ensued and on December 30,
2004 petitioner was summoned to the Huntingdon County State Police Barracks where after
several separate interrogations a confession was obtained wherein petitioner implicated himself
in the deaths. Contemporaneous with Mr. Baker’s presence at the State Police barracks, Crystal
Frederick was present and being interrogated by separate officers in a separate area of the
barracks. Baker and Frederick had arrived at the barracks via Brandon Whisonant in Brandon’s
vehicle.
Crystal Frederick gave a Statement that she and Baker went to Altoona Pennsylvania to
obtain drugs at the time of the deaths. Thereafter Crystal Frederick asked to go to the car and
obtain medication, she was followed by a Trooper who witnessed her attempt at suicide by
taking a bottle of pills. The pills were forcibly removed from her mouth with the exception of
three pills, (which were reportedly soma), and she was taken back into the barracks where she
gave a second statement implicating Baker (and herself to a lesser extent) in the deaths. She was
then taken to J. C. Blair Memorial Hospital and committed on a 302.
Baker was charged with two counts of criminal homicide; (first, second, and third degree;
and voluntary manslaughter); robbery; possession of instruments of a crime; crimes committed
with a firearm; and firearm not to be carried without a license, (criminal complaint and
x, J-.r £ 4-v

2

'I

motion

which we note was skillfully presented arid argued to

the Court.
t ■

Next,
in

the

it is alleged.that trial counsel was ineffective

"investigation

eye witness .
is

arid attacking the credibility of an

The subject matter of this asseveration

Crystal

Frederick

who

was

undeniably

Petitioner at. the scene of the crimes.
gave
he

brief
told

with

At hearing Mr. .Baker

testimony about Ms. Frederick and the fact that

his

since/ he

present

attorneys to obtain her mental.health records

understood

she had. been committed on a 302 after

giving the police a statement.

The importance, he said, was
/-

that the records would reflect what drugs were in tier system
at. the

point

of

commitment

experience

that

April

2009 , at p. 58.).

14,

the

since,,

hospital

he

said, it was his

always draws blood.

(N .T.. ,.

Attorney Hooper testified /that

the defense team in fact obtained, by court, order the records
of Ms. Frederick's commitment on December 30, 2004.

Next, Petitioner sets forth in his petition that he was
coerced
counsel.

into

pleading

However,

the

guilty

by

trial

record

of

the

and.

mitigation

pleas reflect the

following:
\

"Let's

talk

about

12

this,

Stephen. •

You

